            EVALUATION REPORT



                 Evaluation of NRC’s Automated Information
                          System Inventory Process

                     OIG-05-A-22      September 30, 2005




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         September 30, 2005




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   EVALUATION OF NRC’S AUTOMATED
                           INFORMATION SYSTEM INVENTORY PROCESS
                           (OIG-05-A-22)


Attached please find the Office of the Inspector General’s report Evaluation of
NRC’s Automated Information System Inventory Process. Richard S. Carson
and Associates, Inc., conducted this evaluation on our behalf and found that:

   ¾ Information in NRC automated information system (AIS) inventories is
     inaccurate and inconsistent.
   ¾ NRC AIS inventory systems are not designed to capture all of the data
     needed to meet Federal requirements.

During an exit conference on September 21, 2005, NRC officials provided
comments concerning the draft audit report, generally agreeing with the report
contents. Subsequently, the agency elected not to submit formal written
comments to this report.

If you have any questions or wish to discuss this report, please call me at
415-5915 or Beth Serepca at 415-5911.

Attachment: As stated
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety andT
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                    Office of the Inspector General
                          Evaluation of NRC’s
            Automated Information System Inventory Process




                             Contract Number: GS-00F-0001N
                           Delivery Order Number: DR-36-03-346

                                                 September 30, 2005




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                              Evaluation of NRC’s AIS Inventory Process



EXECUTIVE SUMMARY


BACKGROUND

      On December 17, 2002, the President signed the E-Government Act of 2002, which
      included the Federal Information Security Management Act (FISMA) of 2002. FISMA
      outlines the information security management requirements for agencies, including the
      requirement to develop and maintain an inventory of major information systems operated
      by or under control of the agency. The inventory must include an identification of the
      interfaces between each such system and all other systems or networks, including those
      not operated by or under the control of the agency, and must be updated at least annually.
      The inventory shall also be used to support information resources management.

      Management Directive (MD) and Handbook 12.5, NRC Automated Information Security
      Program, assigns the NRC Chief Information Officer (CIO) responsibility for developing
      and maintaining a master inventory of all agency systems. MD and Handbook 2.1,
      Information Technology Architecture, assigns the NRC CIO responsibility for
      developing, maintaining, and implementing the NRC Information Technology
      Architecture (ITA). The agency maintains two inventories, the Information Technology
      Systems Security Tracking System (ITSSTS) and the Enterprise Architecture Repository
      System (EARS), to meet the requirements outlined in MD and Handbooks 12.5 and 2.1,
      respectively.

PURPOSE

      The objective of this review was to evaluate NRC’s process for maintaining an inventory
      of automated information systems (AIS).

RESULTS IN BRIEF

      Carson Associates evaluated NRC’s AIS inventory process and found that:

          •   Information in NRC AIS inventories is inaccurate and inconsistent.
          •   NRC AIS inventory systems are not designed to capture all of the data needed to
              meet FISMA requirements.

      Information in NRC AIS Inventories Is Inaccurate and Inconsistent

      Despite the requirements outlined in MD and Handbooks 12.5 and 2.1 for maintaining
      AIS inventories, the information in NRC AIS inventories is inaccurate and inconsistent
      because the procedures for maintaining and updating AIS inventories are inadequate.
      The lack of adequate procedures not only results in the inaccurate and inconsistent data,
      but also results in duplicative efforts for NRC offices. As a result of inaccurate and
      inconsistent data in the AIS inventories, the agency lacks a complete understanding of
      what AISs are currently in use, and therefore cannot support two of the five areas of


                                               i
                                                             Evaluation of NRC’s AIS Inventory Process



     information resources management specified by FISMA. Without knowing what
     information technology is in place, the agency cannot adequately plan, budget, acquire,
     and manage information. The agency also cannot adequately monitor, test, and evaluate
     security controls for AISs as required by FISMA.

     NRC Automated Inventory Systems Are Not Designed to Capture All of the Data
     Needed to Meet FISMA Requirements

     As stated previously, FISMA requires development of an inventory of major information
     systems that shall be used to support five areas of information resources management.
     However, neither ITSSTS nor EARS were designed to capture all of the data needed to
     fully meet these requirements. For example, only one inventory system captures the data
     needed to indicate which systems include Privacy Act data, and not all systems that
     include Privacy Act data are correctly identified. The agency cannot provide effective
     privacy protections, and cannot test and evaluate those protections, if it cannot identify
     which systems contain Privacy Act data. In addition, neither inventory system captures
     the data needed to support (1) preparation and maintenance of the inventory of
     information resources required to support the Government Information Locator Service,
     (2) preparation of the index of major information systems required under the Freedom of
     Information Act, and (3) preparation of information system inventories required for
     records management.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     the NRC AIS inventory process. A consolidated list of recommendations appears on
     page 13 of this report.

AGENCY COMMENTS

     The Office of the Inspector General (OIG) provided this report in draft to agency officials
     and discussed its content at an exit conference on September 21, 2005. We modified the
     report as we determined appropriate in response to our discussion. Agency officials
     generally agreed with the report’s findings and recommendations and opted not to include
     formal comments.




                                              ii
                                                         Evaluation of NRC’s AIS Inventory Process



ABBREVIATIONS AND ACRONYMS


AIS                 Automated Information System
Carson Associates   Richard S. Carson and Associates, Inc.
CIO                 Chief Information Officer
EARS                Enterprise Architecture Repository System
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
GSS                 General Support System
ITA                 Information Technology Architecture
ITIM                Information Technology Investment Management
ITSSTS              Information Technology Systems Security Tracking System
MA                  Major Application
MD                  Management Directive
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
NSTS                National Source Tracking System
OIG                 Office of the Inspector General
OIS                 Office of Information Services
PASS                Property and Supply System
RPS                 Reactor Program System
SP                  Special Publication
U.S.C               United States Code




                                           iii
                              Evaluation of NRC’s AIS Inventory Process




[Page intentionally left blank]




              iv
                                                                                   Evaluation of NRC’s AIS Inventory Process



TABLE OF CONTENTS


Executive Summary ....................................................................................................... i

1 Background .............................................................................................................. 1

2 Purpose .................................................................................................................... 4

3 Findings.................................................................................................................... 4
    3.1     Information in NRC AIS Inventories Is Inaccurate and Inconsistent .......... 4
    3.2     NRC AIS Inventory Systems Are Not Designed To Capture All of the
            Data Needed To Meet FISMA Requirements ............................................... 11
4 Consolidated List of Recommendations ............................................................. 13

5 OIG Response to Agency Comments .................................................................. 14


Appendices

    Appendix A: Scope and Methodology ............................................................... 15
    Appendix B: 2003 Validation Report .................................................................. 17
    Appendix C: 2005 Validation Report .................................................................. 19




                                                               v
                              Evaluation of NRC’s AIS Inventory Process




[Page intentionally left blank]




              vi
                                                                            Evaluation of NRC’s AIS Inventory Process



1        Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included
FISMA.1 FISMA outlines the information security management requirements for agencies,
including the requirement to develop and maintain an inventory of major information systems
operated by or under the control of the agency. The inventory must include an identification of
the interfaces between each such system and all other systems or networks, including those not
operated by or under the control of the agency. The inventory is required to be updated at least
annually. The inventory shall be used to support information resources management, including:

    •    Preparation and maintenance of the inventory of information resources required to
         support the Government Information Locator Service.2
    •    Information technology planning, budgeting, acquisition, and management.
    •    Monitoring, testing, and evaluation of information security controls.
    •    Preparation of the index of major information systems required under the Freedom of
         Information Act.
    •    Preparation of information system inventories required for records management.

NRC AIS Categories

NRC uses four categories to describe its AISs, as follows:

    •    Major Application (MA) – a computerized information system or application that
         requires special attention to security because of the risk and magnitude of harm that
         would result from the loss, misuse, or unauthorized access to or modification of the
         information in the application.
    •    General Support System (GSS) – an interconnected set of information resources under
         the same direct management control that share common functionality. Typical GSSs are
         local and wide area networks, servers, and data processing centers.
    •    Listed – a computerized information system or application that (1) processes sensitive
         information requiring additional security protections and (2) may be important to an NRC
         office’s or region’s operations, but which is not an MA or GSS when viewed from an
         agency perspective. Sensitive data may include individual Privacy Act3 information, law


1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
  Government Act of 2002 (Public Law 107-347), and replaces the Government Information Security Reform Act,
  which expired in November 2002.
2
  The Government Information Locator Service identifies and describes information resources throughout the
  Federal Government. It also describes how the public can obtain the information (an information locator).
3
  The Privacy Act of 1974 (5 U.S.C. § 552a), As Amended, was enacted to balance the Government’s need to
  maintain information about individuals with the rights of individuals to be protected against unwarranted invasions
  of their privacy resulting from the collection, maintenance, use, and disclosure of personal information. The
  Privacy Act safeguards confidentiality by limiting or restricting disclosure of personally identifiable records
  maintained by Federal agencies.


                                                          1
                                                                          Evaluation of NRC’s AIS Inventory Process



        enforcement sensitive information, sensitive contractual and financial information,
        safeguards, and classified information.
    •   Other – an NRC system that does not require additional security protections and is
        adequately protected by the security provided by the NRC local area network/wide area
        network. The Office of Information Services (OIS) and the system sponsor must first
        jointly decide that the application is appropriately called a system and is to be included in
        the NRC master inventory of systems.

NRC AIS Inventories

MD and Handbook 12.5, NRC Automated Information Security Program, assigns the NRC CIO
responsibility for developing and maintaining a master inventory of all agency systems. The
identification of all major information systems in the inventory must include an identification of
the interfaces between each system and all other systems and networks, including those not
operated by or under the control of the agency.

MD and Handbook 2.1, Information Technology Architecture, assigns the NRC CIO
responsibility for developing, maintaining, and implementing the NRC ITA.4 According to MD
and Handbook 2.1, the ITA:

    •   Ensures the integration and interoperability of technology in the NRC information
        technology environment.
    •   Reduces agency costs for data entry and maintenance; information technology
        development, maintenance, and operation; and training and support.
    •   Increases productivity by improving the quality of information and ensuring users have
        easier access to information.

The NRC ITA is also intended to support other agency processes, such as information
technology capital planning and investment control and information technology acquisitions.
One of the eight5 components of the ITA is a database of information technology systems,
including databases used for change management, integration and retirement of legacy systems,
and ITA compliance certification. The ITA database is used by NRC project managers and OIS
technical staff to track the status of systems during their life cycles, plan system retirements, and
report on systems.

Information Technology Systems Security Tracking System (ITSSTS)

ITSSTS was created to meet the requirements outlined in MD and Handbook 12.5 for developing
and maintaining a master inventory of all agency systems. ITSSTS is used to track information

4
  An ITA is an integrated framework for evolving or maintaining existing information technology and acquiring new
  information technology to achieve the agency's strategic goals and information resources management goals (Title
  40 U.S.C. § 11315(a)). The term enterprise architecture is also used to describe an agency’s ITA.
5
  The other seven components are the Enterprise Model, Strategic Data Model, Consolidated Data Model, Physical
  Technology Architecture, Systems Development Life Cycle Methodology, Technical Reference Model, and Data
  Administration Reference Manual.


                                                        2
                                                                Evaluation of NRC’s AIS Inventory Process



on each MA and GSS, including the publication dates of relevant security documentation such as
risk assessments, security plans, contingency plans, security test and evaluation plans and
reports, and certification and accreditation reports. ITSSTS is also used to track information on
Listed and Other systems. ITSSTS includes information on NRC AISs that are under
development, operational, and no longer in use. NRC AISs that do not meet the criteria of a
system as defined in MD and Handbook 12.5 are not tracked in ITSSTS. The OIS Program
Management, Policy Development, and Analysis Staff, Computer Security Team, maintains
ITSSTS.

ITSSTS includes the following types of information for each system:

   •   Office – the NRC office that owns or sponsors the system.
   •   System ID/System Name – the system’s identifier (usually an acronym) and name.
   •   Type – the system type (MA, GSS, L – Listed, O – Other, Sub – subsystem to another
       system, eG – Electronic Government System).
   •   System Status – current status of the system (Active, Inactive, Development, Retired,
       Transitioned, and Unknown).
   •   Comments – additional system information, typically a description of what the system
       does.

The ITSSTS inventory provided by the agency on July 7, 2005, includes 501 individual systems.

Enterprise Architecture Repository System (EARS)

EARS was created approximately 1 ½ years ago to meet the requirements outlined in MD and
Handbook 2.1 and is one part of NRC’s ITA. EARS includes information on NRC AISs that are
under development, operational, and no longer in use. Systems in EARS may not meet the
criteria for inclusion in ITSSTS. For example, a system may be tracked in EARS because of its
relationship to the NRC ITA; however, it may not meet the criteria for an NRC AIS as defined in
MD and Handbook 12.5. The OIS Business Process Improvement and Applications Division,
Quality Assurance and Technology Branch, is responsible for the ITA database.

EARS includes the following types of information:

   •   Office – the NRC office that owns or sponsors the system.
   •   System Name/Full Name – the system’s identifier (usually an acronym) and name.
   •   Description – additional system information.
   •   System ID – numeric identifier assigned to the system.
   •   Status – current status of the system (Initial Concept, Planning, Full Acquisition, Steady
       State, and Mixed Life Cycle) – this field is empty for almost all of the systems in EARS.




                                                3
                                                                             Evaluation of NRC’s AIS Inventory Process



The EARS inventory provided by the agency on August 23, 2005 (dated August 17, 2005),
includes 404 individual systems.

2          Purpose

The objective of this review was to evaluate NRC’s process for maintaining an inventory of
AISs.

3          Findings

Carson Associates evaluated NRC’s AIS inventory process and found that:

       •   Information in NRC AIS inventories is inaccurate and inconsistent.
       •   NRC AIS inventory systems are not designed to capture all of the data needed to meet
           FISMA requirements.

3.1        Information in NRC AIS Inventories Is Inaccurate and Inconsistent

MD and Handbook 12.5 require regional administrators, office directors, and system
sponsors/owners to ensure that information systems sponsored by their offices are included in the
agency’s master inventory of all agency systems. They are required to work with the agency to
update and revalidate the master inventory of systems on an annual basis.

MD and Handbook 2.1 assign the CIO responsibility for establishing an agencywide data
administration program to promote data integrity and quality, including establishing data
stewardship6 standards and practices. Regional administrators and office directors are
responsible for ensuring that office or regional business data are managed by office and regional
data stewards in conformance with NRC data administration policies, procedures, and standards.

Despite the requirements outlined in MD and Handbooks 12.5 and 2.1 for maintaining AIS
inventories, the information in NRC AIS inventories is inaccurate and inconsistent.

Inaccurate Information

The following are examples of inaccurate information found in ITSSTS and EARS.

       •   Missing data. Many of the fields in both inventories contain no data. In some instances,
           the only information is the system name, making it difficult to identify what the system is
           used for.
       •   Systems not assigned to an office. Both inventories include systems that are not
           assigned to an office. Lack of an assigned office makes it difficult to get updated
           information for that system. Carson Associates identified more than 30 systems that are
           not assigned to an office.

6
    A data steward is an individual charged with monitoring and ensuring the accuracy, timeliness, and compliance of
    a designated subset of NRC data with information technology standards.


                                                           4
                                                                             Evaluation of NRC’s AIS Inventory Process




    •    Variations in system name. Carson Associates identified at least five systems in the
         two inventories that seem to be the same system, but have slight variations in the system
         name. Since ITSSTS does not contain a system ID, it was difficult to determine whether
         the two systems are actually the same system.
    •    Duplicate systems. Both inventories contain multiple entries for what seem to be the
         same systems. However, due to the lack of detailed information on these systems in the
         inventories, Carson Associates could not determine if these entries represented duplicate
         systems. There are approximately 18 systems in the AIS inventories with more than one
         entry.
    •    Errors in system status. Carson Associates identified over 100 systems that are either
         retired, inactive, or were determined not to meet the criteria of a system. These systems
         have a status of “Active” in ITSSTS. Most of these systems have no value in the “status”
         field in EARS. In addition, EARS does not have a status value used to indicate a system
         is no longer in use. Carson Associates also identified six systems marked as “Retired”
         that, according to data provided by the system sponsor/owner, are still “Active.”
    •    Errors in system type in ITSSTS. Carson Associates identified at least 35 systems in
         ITSSTS categorized as “Other” that should be categorized as “Listed.” MD and
         Handbook 12.5 define a “Listed” system as a computerized information system or
         application that processes sensitive information requiring additional security protections.
         As noted previously, sensitive data may include individual Privacy Act information, law
         enforcement sensitive information, or sensitive contractual and financial information.
         Carson Associates identified 11 systems that the sponsoring office identified as
         containing sensitive data, and 1 system that the sponsoring office identified as a “Listed”
         system, but were categorized as “Other” in ITSSTS. Carson Associates also identified 26
         systems that may be systems of record7 or duplicate systems of record8 that were
         categorized as “Other” in ITSSTS. A system of records (or duplicate system of records)
         contains information protected by the Privacy Act, and therefore, should be categorized
         as a “Listed” system.
    •    System interfaces. In response to an FY 2003 FISMA independent evaluation
         recommendation that the agency update the master inventory of systems, the agency
         tasked a contractor to identify the interfaces for all systems under maintenance. The
         results of this information collection were provided to the Enterprise Architecture group
         (OIS Business Process Improvement and Applications Division, Quality Assurance and
         Technology Branch) for input into the agency’s ITA. Carson Associates reviewed the
         system interface information collected by the contractor and found that it did not reflect
         all interfaces for NRC MAs and GSSs. For example, the interface information did not
         include interfaces between the Human Resources Management System and other NRC
         AISs. Carson Associates also reviewed the interface information in EARS (ITSSTS does
         not include interface information) and found that the interface information in EARS does

7
  A system of records is a group of Privacy Act records under the control of NRC from which information is
  retrieved by the name of an individual or by an identifying number, symbol, or other identifier assigned to an
  individual.
8
  A group of records that are similar to records contained in an NRC system of records. It need not contain all of the
  records contained in the primary system.


                                                          5
                                                              Evaluation of NRC’s AIS Inventory Process



       not reflect the interface information gathered by the contractor in response to the FY
       2003 FISMA independent evaluation, nor does it reflect all interfaces for NRC MAs and
       GSSs.

Inconsistent Information

The following are examples of inconsistent information found in ITSSTS and EARS.

   •   Systems in EARS but not in ITSSTS. Carson Associates identified 95 systems that
       were in EARS but were not in ITSSTS. These systems may not meet the criteria for a
       system as defined in MD and Handbook 12.5, and therefore would not be tracked in
       ITSSTS. However, due to the lack of detailed information on these systems, Carson
       Associates could not determine whether they should be tracked in ITSSTS.
   •   Systems in ITSSTS but not in EARS. Carson Associates identified 192 systems that
       were in ITSSTS but were not in EARS. Of the 192, 42 are for actual systems, 9 appear to
       be dummy or temporary entries, and 141 are for standalone personal computers and
       laptops used to process safeguards and/or classified information. Systems that meet the
       criteria for a system and are tracked in ITSSTS are the types of systems that should also
       be tracked in EARS. Standalone PCs and laptops that process safeguards and/or
       classified information, which are considered to be Listed systems and that are tracked in
       ITSSTS, may not need to be tracked in EARS as they are standalone systems and are not
       part of the NRC ITA.
   •   Inconsistent reporting of systems composed of multiple components. Some of the
       systems in ITSSTS are composed of multiple components. In some cases, each
       component is listed as a separate system on the inventory. For example:
          - Four subsystems of the Reactor Program System (RPS) are listed as individual
            systems in ITSSTS. However, not all RPS subsystems are listed. Carson
            Associates identified at least nine additional RPS subsystems that are not included
            in ITSSTS.
          - Five subsystems of the Operations Center Information Management System are
            listed as individual systems in ITSSTS.
          - Nine systems owned by the Office of the Chief Financial Officer are subsystems
            of the Fee Systems. However, they are reported as individual systems.
       EARS has no mechanism for indicating a system is a subsystem.
   •   Inconsistent reporting of “Codes.” NRC uses computer codes to evaluate thermal-
       hydraulic conditions, fuel behavior, and reactor kinetics during various operating and
       postulated accident conditions. Results from applying the codes support decisionmaking
       for risk-informed activities, the review of licensees’ codes and performance of audit
       calculations, and the resolution of other technical issues. One office director inquired
       about whether or not “Codes” should be included on the inventories. The office director
       stated that in a previous exercise updating the NRC Enterprise Model Applications
       Inventory, they were informed that “Codes” should not be included. However, some
       offices included “Codes” on their inventory, and some indicated they should be removed.


                                               6
                                                                Evaluation of NRC’s AIS Inventory Process




Procedures for Maintaining and Updating AIS Inventories Are Inadequate

Information in the NRC AIS inventories is inaccurate and inconsistent because the procedures
for maintaining and updating AIS inventories are inadequate. Specifically, the agency (1) lacks
procedures for updating AIS inventories with information collected from office directors,
regional administrators, and system sponsors/owners; (2) provides insufficient guidance to office
directors, regional administrators, and system sponsors/owners when requesting information for
the AIS inventories; (3) lacks procedures for adding new systems to the AIS inventories; and (4)
lacks procedures for updating information for systems already in the inventory. The lack of
adequate procedures not only resulted in the inaccurate and inconsistent data, but also resulted in
duplicative efforts for NRC offices.

Lack of Procedures for Updating AIS Inventories With Information Collected

The FY 2003 FISMA independent evaluation recommended that the agency update the master
inventory of systems. To address this recommendation, the agency issued a ticket to all NRC
headquarters and regional offices to update their system inventory. This update request was
combined with a request for input on the cost for internal use software, in part to minimize the
impact on offices for duplicate data calls. The agency issued a memorandum on November 25,
2003, describing the data call and stating that in the future, the agency would be issuing two data
calls per year to update/validate the data. The agency made subsequent data calls September 17,
2004, and June 3, 2005.

Carson Associates reviewed the data collected during the three data calls and found that neither
EARS nor ITSSTS was updated with the data collected. For example, one office noted in its
response to the 2004 data call that none of the updates provided in response to the previous
year’s request were applied. Another office noted in response to the 2005 data call that three of
the systems assigned to their office had been transferred to another office in 1993, and that “it
would seem that after 12 years they should no longer show up” on our list. It should also be
noted that the agency is not meeting its commitment to conduct biannual data calls. Since the
first data call in November 2003, the agency has only issued two more.

While the agency has implemented procedures to gather the information required for the
inventories, it has not developed procedures for making sure the information is actually entered
into the inventories. As a result, the inventories are not being updated annually as required by
FISMA.

Insufficient Guidance Provided on Information Required

For the 2003 data call, each office was provided with a single-page “validation report” for each
system sponsored by that office. A sample of the 2003 validation report can be found in
Appendix B. For the 2005 data call, each office was provided with a three-page validation
report. A sample of the 2005 validation report can be found in Appendix C. The offices were
provided little or no guidance on the information being requested. The following are examples
of the insufficient guidance provided to office directors, regional administrators, and system
sponsors/owners when requesting information for the AIS inventories.


                                                 7
                                                                         Evaluation of NRC’s AIS Inventory Process




      •   The 2003 data call asked for the “A-130 Type,” 9 and whether the system is one of the
          following: MA, GSS, Listed, or Other. However, the 2003 data call provided no
          guidance as to what A-130 Type means, what choices are valid for A-130 Type, and what
          the relationship is between A-130 Type and the other information system types. The
          2003 data call also provided no guidance on the implications of indicating “Yes” for
          sensitive. According to MD and Handbook 12.5, if a system contains sensitive data, then
          the system is considered a “Listed” system.
      •   One office director responded to the 2003 data call with several questions pertaining to
          the data call, including:
               - Which fields need to be updated/completed (many of the fields do not apply to
                 most systems)?
               - What are the choices for the A-130 field (what does Other and Non-Tracked
                 System mean)?
               - Which systems need “Approval to Operate?”
               - Can you define “system” as far as what you want us to provide data?
      •   One office responded to the 2004 data call with a question about systems on their
          inventory that were actually subsets of a bigger system. The office asked for guidance on
          how those “subsystems” should be reported. As noted earlier, Carson Associates found
          several subsystems on the inventory, indicating that not enough guidance was provided
          on how these subsystems should be reported.
      •   The 2005 data call provided some guidance on the four system security categories found
          on the validation report by providing a reference to MD and Handbook 12.5. However,
          the 2005 data call did not provide any additional guidance, despite previous requests for
          clarification on the information requested.
      •   All three data calls request a list of interfacing systems, by System ID. However, the data
          calls did not provide the entire list of NRC AISs and their System IDs. In addition, the
          language used in the validation reports implies that only interfaces with other NRC AISs
          need to be reported. FISMA and MD and Handbook 12.5 require all interfaces to be
          included in the inventory, including interfaces with systems or networks not operated by
          or under the control of the agency.

Lack of Procedures for Adding New Systems

The agency lacks procedures for adding new systems to the AIS inventories. For example,
EARS contains an entry for the National Source Tracking System (NSTS), a new system
currently under development. The agency was made aware of this system during the 2004 data
call, yet it was not included in the ITSSTS inventory provided to Carson Associates in July 2005.
Carson Associates has subsequently learned that the NSTS is considered to be a Major
Application, and should be tracked in ITSSTS. Due to the lack of procedures for adding new

9
    Carson Associates assumes that A-130 refers to OMB Circular A-130, Management of Federal Resources, which
    establishes policy for the management of Federal information resources.


                                                        8
                                                                           Evaluation of NRC’s AIS Inventory Process



systems to the AIS inventories, NSTS was omitted from ITSSTS. Another system Carson
Associates identified in EARS but did not find in ITSSTS is EARS itself. EARS meets the
criteria of a system as defined in MD and Handbook 12.5, yet it was never added to ITSSTS as a
system.

Lack of Procedures for Updating Information for Existing Systems

The agency also lacks procedures for updating information for systems already in the
inventories, other than through the biannual data calls. As a result, systems that are no longer
being used are still being reported as “Active.” Since the agency is currently issuing data calls
only annually, inactive systems could remain on the AIS inventories as “Active” for at least a
year. For example, one office reported in its response to the 2005 data call that three of its
systems were not year-2000 compatible and their use was discontinued at the end of 1999.
However, since the agency lacks procedures for offices to follow when a system retires or is no
longer used, these systems were still being reported as active systems in the AIS inventories.

AIS Inventories Cannot Support Intended Functions

As stated previously, FISMA requires development of an inventory of major information
systems that shall be used to support five areas of information resources management. However,
as a result of inaccurate and inconsistent data in the AIS inventories, the agency lacks a complete
understanding of what AISs are currently in use, and therefore cannot support two of the five
areas of information resources management specified by FISMA. Without knowing what
information technology is in place, the agency cannot adequately plan, budget, acquire, and
manage information technology. The agency also cannot adequately monitor, test, and evaluate
security controls for AISs as required by FISMA.

AIS Inventories Cannot Support Information Technology Planning, Budgeting,
Acquisition, and Management

FISMA specifies the inventory shall be used to support information technology planning,
budgeting, acquisition, and management under section 3506(h) of title 44, title III of title 40, and
related laws and guidance. These statutes require agencies to design and implement a process for
maximizing the value, and assessing and managing the risks, of agency information technology
acquisitions. Agency programs supporting these statutes include the capital planning and
investment control process and the agency ITA.

An important aspect of the capital planning and investment control process is the integration of
information technology security. National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-65, Integrating IT Security into the Capital Planning and Investment
Control Process, dated January 2005, provides a systematic approach to selecting, managing,
and evaluating information technology security investments. NIST SP 800-65 describes the
creation of a system inventory as a key aspect of Stage Two (building the investment foundation)
of the Information Technology Investment Management (ITIM) maturity framework.10 The

10
     The ITIM maturity framework is a five-stage model, developed by the Government Accountability Office, for
     assessing the maturing of agencies’ investment management practices.


                                                          9
                                                                Evaluation of NRC’s AIS Inventory Process



system inventory ensures the agency can identify cost, benefit, schedule, risk, and investment
ownership information and review investment performance accordingly.

NIST SP 800-65 further states that both FISMA and the ITIM framework require the
development of a system inventory. The system inventory is a cornerstone of the ITIM
framework and also relates directly to investment security concerns. NIST recommends that
agencies work to build a single system inventory that meets the requirements of both the ITIM
framework and FISMA.

MD and Handbook 2.1 include an exhibit that shows how each ITA component is used during
the applications system life cycle. The ITA database is intended to support the following life
cycle phases:

   •   Planning – to see if a system already exists; plan for integration and retirement.
   •   Acquisition –to ensure acquisitions integrate with existing systems.
   •   Development – to track the status of developing new systems.
   •   Operations and Maintenance – to track and report on current systems.
   •   Decommissioning – to plan system retirements.

However, neither ITSSTS nor EARS can be used to support information technology planning,
budgeting, acquisition, and management as described in Federal statutes and MD and Handbook
2.1, because both inventories contain inaccurate data. For example, the first step in planning a
new information technology acquisition is to determine whether the agency already has a system
that provides the functions sought from the new system. This step cannot be performed if the
agency does not have an accurate inventory of systems already in use, including specifics on
what functions those systems provide.

AIS Inventories Cannot Support Monitoring, Testing, and Evaluation of Information
Security Controls

FISMA also states the inventory shall be used to support monitoring, testing, and evaluating
information security controls. FISMA requires agencies to periodically test and evaluate
information security controls and techniques for the information and information systems that
support the agency to ensure that they are effectively implemented. This requirement includes
testing of management, operational, and technical controls of every information system
identified in the inventory required by FISMA. MD and Handbook 12.5 define the security
controls required for each of the four categories of AISs. However, the agency cannot monitor,
text, and evaluation information security controls if it does not have an accurate inventory of
systems in use.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   1. Correct the inaccuracies in the AIS inventories.


                                                10
                                                                  Evaluation of NRC’s AIS Inventory Process



      2. Validate the information in the AIS inventories annually.
      3. Provide guidance on the type of information required from the office directors, regional
         administrators, and system owners/sponsors when providing AIS inventory updates.
      4. Develop and implement procedures for adding new systems to the AIS inventories.
      5. Develop and implement procedures for notifying OIS of changes in system information
         in the AIS inventories.
      6. Develop and implement procedures for recording system information for systems that are
         composed of multiple components.

3.2       NRC AIS Inventory Systems Are Not Designed To Capture All of the Data
          Needed To Meet FISMA Requirements

As stated previously, FISMA requires development of an inventory of major information
systems that shall be used to support five areas of information resources management. However,
neither ITSSTS nor EARS were designed to capture all of the data needed to fully meet these
requirements. Specifically:

      •   Only one inventory system captures the data needed to indicate which systems include
          Privacy Act data.
      •   Neither inventory system captures the data needed to support other information resources
          management functions required by FISMA.

As a result, NRC AIS inventory systems do not meet FISMA requirements.

Only One Inventory System Indicates Which Systems Include Privacy Act Data

MD and Handbook 12.5 state that effective privacy protections are essential to all NRC AISs,
especially those that contain substantial amounts of personally identifiable information. The use
of new information technologies should sustain, and not erode, the privacy protections provided
in all statutes and policies relating to the collection, use, and disclosure of personal information.
However, only one inventory system captures the data needed to indicate which systems include
Privacy Act data, i.e., which systems are electronic systems of records and which systems are
duplicate systems of records. In addition, not all systems that include Privacy Act data are
correctly identified in that inventory system. The agency cannot provide effective privacy
protections, and cannot test and evaluate those protections, if it cannot identify which systems
contain Privacy Act data.

Other Information Resources Management Functions

In addition to (1) information technology planning, budgeting, acquisition, and management and
(2) monitoring, testing and evaluation of information security controls, FISMA identifies three
other information resources management areas that shall be supported by the inventory:




                                                  11
                                                                              Evaluation of NRC’s AIS Inventory Process




       •    Preparation and maintenance of the inventory of information resources required to
            support the Government Information Locator Service.
       •    Preparation of the index of major information systems required under the Freedom of
            Information Act.
       •    Preparation of information system inventories required for records management.

Neither EARS not ITSSTS captures the data needed to support these areas of information
resources management. For example, neither inventory system captures the data necessary to
identify an AIS as an electronic records system.11

RECOMMENDATION

       The Office of the Inspector General recommends that the Executive Director for Operations:

       7. Modify the AIS inventory systems to capture all of the data needed to meet FISMA
          requirements.




11
     An electronic records system is any information system that produces, manipulates, or stores Federal records by
     use of a computer.


                                                           12
                                                               Evaluation of NRC’s AIS Inventory Process



4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Correct the inaccuracies in the AIS inventories.
    2. Validate the information in the AIS inventories annually.
    3. Provide guidance on the type of information required from the office directors, regional
       administrators, and system owners/sponsors when providing AIS inventory updates.
    4. Develop and implement procedures for adding new systems to the AIS inventories.
    5. Develop and implement procedures for notifying OIS of changes in system information
       in the AIS inventories.
    6. Develop and implement procedures for recording system information for systems that are
       composed of multiple components.
    7. Modify the AIS inventory systems to capture all of the data needed to meet FISMA
       requirements.




                                               13
                                                              Evaluation of NRC’s AIS Inventory Process



5      OIG Response to Agency Comments

OIG provided this report in draft to agency officials and discussed its content at an exit
conference on September 21, 2005. We modified the report as we determined appropriate in
response to our discussion. Agency officials generally agreed with the report’s findings and
recommendations and opted not to include formal comments.




                                               14
                                                                                  Appendix A – Scope and Methodology
                                                                              Evaluation of NRC’s AIS Inventory Process


SCOPE AND METHODOLOGY

The scope of this report only includes inventories, and the systems used to maintain them, that
the agency uses to track information about NRC AISs. This report does not address other types
of inventories maintained by the agency or inventory systems used at the agency. For example,
the Division of Administrative Services within the Office of Administration manages the
Property and Supply System (PASS), which accounts for non-capitalized equipment.12 While
PASS may include information about the information technology equipment, such as servers,
used to support NRC AISs, it does not include information about the AISs themselves.
Therefore, PASS was not included within the scope of this evaluation.

To perform the evaluation of NRC’s AIS inventory process, Carson Associates met with OIS
staff responsible for maintaining ITSSTS and EARS. Carson Associates also compared the data
in ITSSTS and EARS, based on inventories provided by the agency.

The work was conducted from July 2005 to August 2005 in accordance with guidelines from the
National Institute of Standards and Technology, and best practices for evaluating security
controls. Jane Laroussi, CISSP, from Carson Associates conducted the work.




12
      Non-capitalized equipment represents NRC property (either in the agency’s possession or contractor-held) with an
     initial acquisition cost of less than $50,000. This includes information technology equipment.


                                                           15
                                  Appendix A – Scope and Methodology
                              Evaluation of NRC’s AIS Inventory Process




[Page intentionally left blank]




              16
           Appendix B – 2003 Validation Report
     Evaluation of NRC’s AIS Inventory Process




17
                                    Appendix B – 2003 Validation Report
                              Evaluation of NRC’s AIS Inventory Process




[Page intentionally left blank]




              18
           Appendix C – 2005 Validation Report
     Evaluation of NRC’s AIS Inventory Process




19
           Appendix C – 2005 Validation Report
     Evaluation of NRC’s AIS Inventory Process




20
           Appendix C – 2005 Validation Report
     Evaluation of NRC’s AIS Inventory Process




21
                                    Appendix C – 2005 Validation Report
                              Evaluation of NRC’s AIS Inventory Process




[Page intentionally left blank]




              22
